                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I03060024                                        -[I                            Page 1' of 1



         The National Science Foundation (NSF) ofice of Small Business Innovation Research (SBIR)
         rkceived correspondence alleging that a business grantee' was ineligible for the SBIR program.

         Investigation revealed that approximately one year ago, the Small Business Administration
         (SBA) determined the business grantee ineligible to participate in the SBIR program.

         F,urtherinvestigation indicated that the grantee applied for the SBIR funding with the provision
         a d understanding that NSF would approve a contract novation, which would address the SBA
         @eligibilityissue.
           4

         In view of the identified facts and circumstances, it was determined that the grantee did not
         dowingly
           !
                     submit a false certification.

         SBIR decided to discuss the novation with the grantee and not release any money until the
         novation is completed.
               ;

         Accordingly, this case is closed




           ~iotnoteredacted

                   !

NSF OIG Form,2 (1 1/02)
